CERTIFICATE OF SERVICE
No. 20Raynal King & Howard R. Ross, III,
v.

Petitioners

United States of America,
Respondent.
I, Daniel P. Goldberg, do hereby certify that, on this 25th day of March, 2021,
I caused one copy and an electronic copy of the petition for a writ of certiorari in the
foregoing case to be served electronically and by Federal Express, postage prepaid,
on the following party:
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
SupremeCtBriefs@USDOJ.gov
(202) 514-2217
/s/ Daniel P. Goldberg
DANIEL P. GOLDBERG
FEDERAL PUBLIC
DEFENDER’S OFFICE
1000 Walnut, Suite 600
Kansas City, MO 64106
(816) 471-8282
Dan_Goldberg@fd.org

